Audit of Certain USAID/Dominican Republic
           Financial Operations


          Audit Report No. 1-517-01-002-F
                 January 9, 2001




          San Salvador, El Salvador
             U.S. AGENCY FOR
              INTERNATIONAL
               DEVELOPMENT

             RIG/San Salvador


             January 9, 2001

             MEMORANDUM
             FOR:               USAID/Dominican Republic Director, Elena Brineman

             FROM:              RIG/San Salvador, Timothy E. Cox

             SUBJECT:           Audit of Certain USAID/Dominican Republic Financial Operations
                                (Report No. 1-517-01-002-F)

             This memorandum is our report on the subject audit.

             This report contains four recommendations for your action. Final action has been
             taken on all four recommendations and, therefore, Recommendation Nos. 1, 2, 3,
             and 4 are closed upon issuance of this report.

             I appreciate the cooperation and courtesy extended to my staff during the audit.


Background   This report focuses on USAID/Dominican Republic’s procedures for processing
             advances and disbursements and its procedures for reporting on the status of its
             budget allowances to USAID/Washington. According to USAID/Dominican
             Republic’s records, during the 12-month period ending March 31, 2000, the
             Mission made 105 advances of $1,500 or more, totaling $7.1 million.
             USAID/Dominican Republic’s records indicate that, during the same period, 801
             project and 346 operating expense disbursements of $1,500 or more were made
             totaling respectively $18.3 and $2.7 million.

             USAID/Dominican Republic’s Controller Office, which is the Mission’s focal point
             for financial operations, has 18 staff including a Controller, Chief Accountant,
             Certifying Officer, accountants, financial analysts, voucher examiners, and other
             professionals. USAID/Dominican Republic also has a fiscal agent, the Banco de
             Desarrollo Dominicano, for 22 local recipient organizations under two mission
             programs. This fiscal agent reviews the recipients’ advance requests and advance
             liquidations and submits fiscal agent’s vouchers on behalf of the recipients to the
             Mission. A Mission official estimated that the fiscal agent handles up to half of the


              Page 1 of 12                                            Audit Report No. 1-517-01-002-F
                  Mission’s project vouchers. Also, Mission officials said the fiscal agent’s reviews
                  were both similar to reviews by Mission’s voucher examiners and more extensive,
                  because local organizations submitted not only their monthly financial reports, but
                  also the supporting documentation for expenses. Mission controls on the fiscal agent
                  consisted of a Mission staff who performed monitoring tasks, an external audit of the
                  fiscal agent, and financial audits of the local organizations.

                  USAID/Dominican Republic also performs the controller functions for
                  USAID/Guyana. It performed the controller functions for the RDO/Caribbean in
                  Barbados until June 2000, when the controller functions were transferred to
                  USAID/Jamaica.



Audit Objective   As part of its fiscal year 2000 audit plan, the Office of the Regional Inspector General
                  for Audit/San Salvador performed an audit to answer the following audit objective:

                  •   Were USAID/Dominican Republic’s advances, disbursements, and balances
                      properly processed and reported?

                  Appendix I describes the audit scope and methodology.



Audit Findings    Were USAID/Dominican Republic’s advances, disbursements, and
                  balances properly processed and reported?

                  USAID/Dominican Republic’s advances, disbursements, and balances as of March
                  31, 2000 were properly processed and reported, except that some recipients submitted
                  insufficient financial data for Mission analysis of the advance request, Mission
                  monitoring of outstanding advances was not frequent enough, and there was a
                  backlog of unreconciled items over three months old.

                  With respect to advances, based on an examination of sample transactions, as
                  described in Appendix I:

                  •   Advances were requested by the recipients or the Mission’s fiscal agent.

                  •   Advance requests were approved by project officers.

                  •   Advance requests were reviewed and approved by Controller Office personnel
                      consistent with USAID policies and procedures, except for advance requests
                      reviewed by the fiscal agent and submitted with insufficient financial data.

                  •   Advances were correctly certified by Controller Office staff.



                   Page 2 of 12                                             Audit Report No. 1-517-01-002-F
•   Amounts advanced were in agreement with the supporting documentation.

With respect to disbursements, based on a review of sample transactions as described
in Appendix I, USAID/Dominican Republic:

•   Correctly annotated vouchers with the date they were received by
    USAID/Dominican Republic.

•   Made payments on time.

•   Made sure that invoices were arithmetically correct.

•   Verified that the payment request was in compliance with the contract or
    agreement.

•   Ensured that payments were made to correct payees.

•   Recorded payment information correctly in its accounting system and payment
    tracking system.

Among the vouchers for disbursement processed by the Mission were payments for
support services provided by the U.S. Embassies in Santo Domingo, Dominican
Republic and Georgetown, Guyana, called International Cooperative Administrative
Support Services (ICASS) charges. Although the Mission performed extensive
reviews of the U.S. Embassies’ proposed ICASS budget, the Mission did not have
assurance that the subsequent charges represented actual costs. ICASS charges for
fiscal year 1999 support services totaled $326,462 for both USAID missions in the
Dominican Republic and Guyana. We did not review the embassies’ supporting
documentation for ICASS charges and we did not make a recommendation on ICASS
charges, because a joint audit of ICASS charges by the Offices of Inspector General
of the Department of State and USAID is scheduled for the year 2001.

With respect to the Mission’s U-101 accounting report, based on a review of amounts
reported by USAID/Dominican Republic for two appropriations, balances as of
March 31, 2000 were properly reported and disbursements were reconciled with
disbursing office accounts. However, there were a large number of unreconciled
items, as of March 31, 2000, between the Mission Accounting and Control System
and the U.S. Disbursing Office’s 1221 reports.

The following sections discuss matters regarding advances and unreconciled items.

Cash Advances

The Mission process for cash advances has two weaknesses, involving incomplete
financial reports from organizations requesting advances and infrequent reviews of
outstanding advances. Mission policy and procedures to implement respective


Page 3 of 12                                           Audit Report No. 1-517-01-002-F
USAID Automated Directives System (ADS) requirements could be improved on
these two weaknesses, which have resulted in the use of advances for expenses
incurred at dates later than the intended period and overdue advance liquidation
vouchers.

ADS 636.5.3 requires that program-funded advances for immediate disbursing
needs (which is defined as up to 30 calendar days for advances by Treasury check,
automated clearing house, or electronic funds transfer) be based on an analysis of
an organization’s working capital requirements. Mission Order No. IV.11, section
V.B.2 requires that the organization requesting an advance submit a financial
report, which states the status of advances received, expenditures, and projected
expenditures. This financial report is intended for a Mission analysis, which
considers cash on hand, compares the requested advance to prior expenditures, and
requires written justification when the requested advance exceeds the average
monthly expenditures for the past three months by more than 15 percent.

Our sample of 20 advance transactions showed that financial reports for four
advance requests did not contain sufficient data to enable the Mission to analyze
the respective requested advances and prepare an accompanying cash advance
analysis worksheet. As a result, these advances exceeded immediate disbursing
needs, as indicated by the dates for expenditures in their advance liquidation
vouchers. The Mission has provided instructions on advance requests to
organizations, but these instructions lacked details on the financial data for
inclusion in the financial report.

In addition, ADS E636.5.3b requires monitoring of outstanding advances on an on-
going basis, at a minimum, quarterly. USAID/Dominican Republic’s Mission
Order did not address such monitoring.

USAID/Dominican Republic has monitored outstanding advances, but not on an
on-going basis. Specifically, it reviewed the Advance Aging Report as of July 15,
1999, November 2, 1999, and December 28, 1999; reviewed advances provided to
certain organizations in the Spring of 2000; and followed up these reviews with
requests for voucher submissions and refunds. Our sample showed two advances
that needed mission follow-up actions as of September 2000. These advances have
not been liquidated, since the recipients have not submitted expenditure vouchers
to liquidate the advances.

Accordingly, we are recommending that USAID/Dominican Republic address
financial reports for its advance analysis and periodic reviews of outstanding
advances.

       Recommendation No. 1: We recommend that USAID/Dominican
       Republic issue written instructions to implementing organizations
       on the data needed in their financial reports for advance analysis.




Page 4 of 12                                          Audit Report No. 1-517-01-002-F
       Recommendation No. 2: We recommend that USAID/Dominican
       Republic revise its Mission Order to address the monitoring of
       outstanding advances on an on-going basis, at least quarterly.

Unreconciled Items Over Three Months Old

The Mission has a backlog of unreconciled items from its monthly reconciliations
of its Mission Accounting and Control System (MACS) with U.S. Disbursing
Office’s (USDO) 1221 reports. Although the Financial Management Bulletin
provides guidance, the Mission was not been able to process the unreconciled
items last year due to additional workload caused by Hurricane Georges. The
effect of the unreconciled items was minimal. As the additional workload has
decreased, a Mission official said that efforts to reduce the unreconciled items have
been made. Nevertheless, one type of unreconciled item, which involves the U.S.
Embassies in Guyana and Dominican Republic, constitutes a third of the backlog
and requires written procedures among the organizations.

USAID Financial Management Bulletin, Part 2 No. 14b, section III.B.2 states that
outstanding reconciling items over two months old need to be researched and
corrected. USAID Financial Management Bulletin, Part 2 No. 14b, section V.A.3
states that a mission should make formal arrangements with the U.S. Embassy to
obtain copies of vouchers processed on behalf of the mission.

The Mission’s 1221/MACS reconciliation list for March 31, 2000 showed 776
unreconciled items totaling $2,783,602 that were over three months old, of which
52 percent involved USAID/Guyana and the remainder involved
USAID/Dominican Republic. Also, of the 776 unreconciled items, there were 589
items (76 percent) due to accounting entries in the USDO’s 1221 report without
corresponding MACS entries and the remainder were MACS entries without
corresponding USDO entries. The following table shows these data:

         Unreconciled Items in:        USAID/Guyana     USAID/DR          Totals
          MACS                                   24           163               187
          USDO’s 1221 Report                    376           213               589
             Totals:                            400           376               776

Of the 589 USDO items, there were 267 transactions made by U.S. Embassies for
expenses of respective USAID missions. Of the 267 transactions, 216 transactions
were identified for the U.S. Embassy in Guyana and 51 transactions were
identified for the U.S. Embassy in the Dominican Republic. USAID/Dominican
Republic officials said that corresponding accounting entries could not be made in
MACS until the U.S. Embassies provided vouchers and/or supporting
documentation.

With respect to the unreconciled USAID/Guyana items, Mission officials
described two other types of unreconciled items. One type involved disbursements
that appeared in the USDO’s 1221 report, but not in the MACS. These


Page 5 of 12                                            Audit Report No. 1-517-01-002-F
unreconciled items were attributed to a backlog of USAID/Guyana vouchers
awaiting data input into the MACS. The other type involved disbursements that
appeared in the MACS, but not in the USDO’s 1221 report. These unreconciled
items were attributed to two factors. First, the U.S. Embassy in Guyana did not
change the default code, which charged disbursements to USAID/Washington, to
USAID/Guyana. Second, USAID/Washington was late in sending advice of
charges for the error-coded disbursements to USAID/Dominican Republic.

With respect to the unreconciled USAID/Dominican Republic items, Mission
officials described another recurring type of unreconciled item. USDO/Charleston
issued payroll checks in local currency and charged Mission appropriations.
Afterwards, the Mission made the appropriate reconciling MACS entries, which
were usually three to four months after payments. Since the payroll was budgeted
from both appropriations (U.S. Government funds) and trust funds (host
government funds deposited at a local bank), USAID/Dominican Republic also
issued payments to USDO/Charleston for reimbursement of the locally-funded
share of payroll expenses. A Mission official said that the budget for the trust
fund’s share of payroll for calendar year 2000 was about $350,000 or a third. This
payroll reimbursement process is described in Mission Order No. IV.4.1.

Mission officials said that the unreconciled USAID/Dominican Republic items
resulted from a temporary work overload last year caused by the Mission’s efforts
on Hurricane Georges reconstruction activities and were being processed.
Similarly, Mission officials indicated that the unreconciled USAID/Guyana items
were being processed.

The effect of the unreconciled items was minimal. For example, 42 of the 776
items have a value of $10,000 or more, totaled $2,123,225, and consisted mostly of
payroll, ICASS, incoming advice of charges, and items for write-off. The other
734 items totaled $660,377, which compared to total disbursements of $1,500 or
more for the 12-month period ended March 31, 2000, was 3.1 percent.

We believe that the Mission has given unreconciled 1221/MACS items due attention
commensurate with its workload and priorities and should be able to reduce the
number of unreconciled items as other tasks require less efforts. Nevertheless, the
Mission should strengthen the controls on charges initiated and processed through the
U.S. Embassies in Guyana and Dominican Republic for charges to the respective
missions, on which a USAID/Dominican Republic official said that there were no
agreements among the parties.

Accordingly, we make the following recommendations.

       Recommendation No. 3: We recommend that USAID/Dominican
       Republic establish, in consultation with USAID/Guyana and the
       U.S. Embassy in Guyana, written procedures on the vouchers




Page 6 of 12                                            Audit Report No. 1-517-01-002-F
                        initiated and processed through the U.S. Embassy for charges to
                        USAID/Guyana.

                        Recommendation No. 4: We recommend that USAID/Dominican
                        Republic establish, in consultation with the U.S. Embassy in
                        Dominican Republic, written procedures on the vouchers initiated
                        and processed through the U.S. Embassy for charges to
                        USAID/Dominican Republic.




Management     USAID/Dominican Republic agreed with the report findings and the
Comments and recommendations by taking actions as follows.
Our Evaluation
                 In response to Recommendation No. 1, USAID/Dominican Republic held a
                 meeting with all grantees and contractors that either receive advances directly or
                 administer advances to sub-grantees to discuss the new advance request format and
                 later provided written instructions to those same institutions. The new advance
                 request format included a revised chart on advances and monthly expenditures in
                 the financial report submitted with the advance request.

                 In response to Recommendation No. 2, USAID/Dominican Republic revised
                 Mission Order No. IV.11 to include procedures on monitoring outstanding
                 advances on a quarterly basis.

                 In response to Recommendation No. 3, USAID/Dominican Republic signed a
                 Memorandum of Understanding with USAID/Guyana and U.S. Embassy in
                 Guyana on procedures for USAID/Guyana vouchers processed by the Embassy.

                 In response to Recommendation No. 4, USAID/Dominican Republic signed a
                 Memorandum of Understanding with U.S. Embassy in the Dominican Republic on
                 procedures for USAID/Dominican Republic vouchers processed by the Embassy.

                 See Appendix II for the full text of USAID/Dominican Republic’s comments.

                 Based on the information above, final action has been taken on Recommendation
                 Nos. 1, 2, 3, and 4 and, therefore, these recommendations are closed upon issuance of
                 the report.




                 Page 7 of 12                                            Audit Report No. 1-517-01-002-F
                                                                                         Appendix I




Scope and     Scope
Methodology
              The Office of the Regional Inspector General/San Salvador conducted an audit of certain
              USAID/Dominican Republic’s financial operations. The audit was performed in
              accordance with generally accepted government auditing standards at USAID/Dominican
              Republic’ offices from August 21, 2000 through October 3, 2000.

              As part of the audit, we obtained an understanding of the controls over the advance
              process, payment process, and reconciliation process. We determined whether the
              controls were placed in operation, and we assessed control risk. We also assessed
              compliance with the Prompt Payment Act and Office of Management and Budget
              Circular No. 125. We did not assess compliance with any other laws and regulations
              applicable to the audit objective.

              The audit examined USAID/Dominican Republic’s financial operations related to cash
              advances, disbursements, and reporting on the status of its budget allowances for the
              period April 1, 1999 through March 31, 2000 and subsequent follow-up actions on
              selected items as of September 2000. It did not cover any other USAID/Dominican
              Republic financial operations.

              Methodology

              The audit objective was to determine if USAID/Dominican Republic’ advances,
              disbursements, and balances were properly processed and reported.

              In examining advances, we reviewed a random sample of 20 advances made by
              USAID/Dominican Republic from April 1, 1999 to March 31, 2000. The population
              of all advances of $1,500 or more and the sample of 20 advances we reviewed are
              compared in the following table:

                                  Advances of $1,500 or more     Number        Amount
                                         Population               105         $7,106,731
                                           Sample                  20         $1,684,579

              For each sample item, we reviewed documentation and interviewed
              USAID/Dominican Republic personnel to verify that: (1) the request for advance was
              approved by the project officer, (2) the Controller’s Office certified the advance for
              payment, (3) the voucher was reviewed and approved by the Controller’s Office
              personnel consistent with USAID/Dominican Republic and USAID policies and
              procedures, (4) the advance was requested by the recipient, (5) the amount advanced
              agreed with the supporting documentation, and (6) the period covered by the advance
              was in accordance with USAID policies, and (7) liquidations against the advance
              covered the same period.



              Page 8 of 12                                          Audit Report No. 1-517-01-002-F
                                                                             Appendix I


In examining disbursements, we used queries developed by USAID/Dominican
Republic’s staff to obtain from the Mission Accounting and Control System a list of
all disbursements of $1,500 or more by USAID/Dominican Republic during the 12-
month period. We did not perform any specific audit procedures to verify that this list
was complete but during the audit we were alert to any possible indications that the list
might not be complete. We divided the list into two groups of disbursements:

   S   Program-type disbursements that represent costs of USAID assistance
       programs and typically represent relatively high value, non-routine expenses.

   S   Administrative-type disbursements that represent relatively low value, routine
       expenses. Many, although not all, of these disbursements are for Mission
       operating expenses.

We then drew two samples of disbursements for detailed review. Since program-type
disbursements present a higher degree of inherent risk, because of their relatively high
value and non-routine nature, we drew a random sample of 30 program-type
disbursements. Because administrative-type disbursements present a lower degree of
inherent risk, we drew a judgment sample of 10 administrative-type disbursements for
detailed review. Upon review, we eliminated the non-disbursement transactions (7
transactions from program-type disbursements and 2 transactions from administrative-
type disbursements) from the samples. The populations and samples reviewed are
compared below:

         Population                                Number          Amount
                                                  (vouchers)
         Program-type disbursements                      801    $18,340,649
         Administrative-type disbursements               346     $2,674,328
         Total                                         1,147    $21,014,977

         Sample                                    Number          Amount
                                                  (vouchers)
         Program-type disbursements                       23        $282,560
         Administrative-type disbursements                  8        $61,923
         Total                                            31        $344,483

For the disbursements in the sample of program-type disbursements, we performed the
following steps:

   •   Verified that the date the voucher was received was annotated on the face of
       the voucher.

   •   Traced each voucher through the payment process from the time it was
       received until it was paid, noting the dates it was received, certified for
       payment, and actually paid.




Page 9 of 12                                            Audit Report No. 1-517-01-002-F
                                                                           Appendix I

   •   Verified the arithmetical accuracy of each voucher.

   •   Compared the payment request with the terms and provisions of the underlying
       contract or agreement to verify that the payment request was in compliance
       with the contract or agreement.

   •   Compared the payee shown in the payment request to the payee shown in the
       contract or agreement.

   •   Verified that each payment was made within the time permitted for payment
       (generally 30 days unless the contract or agreement provides for a different
       payment period) and that interest was added to any late payments.

   •   Compared the information recorded in the Mission Accounting and Control
       System and payment tracking system for each payment to source documents to
       verify that the information was accurate.

For the disbursements in the sample of administrative-type disbursements, we
compared the disbursement with the underlying contract, grant, or other authorizing
document to verify that the payment was in compliance with the authorizing
document.

In reviewing the balances as of March 31, 2000 reported by USAID/Dominican
Republic, we traced the amounts reported by USAID/Dominican Republic in its U-101
report (Summary of Allowance Ledger Transactions and Reconciliation with the
Disbursing Officer’s Account) for two appropriations to the supporting documentation
and verified the correctness of the amounts reported. These appropriations were
selected judgmentally.

We also reviewed the reconciliation of the disbursements reported in the Mission
Accounting and Control System with the disbursements reported by the State
Department and Treasury Department disbursing offices as of February 29, 2000, and
we calculated the number and absolute value of the unreconciled transactions as of
March 31, 2000.

In performing the audit tests described above, we considered non-compliance
exceeding 5 percent of the cases reviewed to represent material non-compliance.




Page 10 of 12                                         Audit Report No. 1-517-01-002-F
                                                                              Appendix II




MANAGEMENT
COMMENTS




                       UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                                  Santo Domingo, Dominican Republic




                                                          UNITED STATES GOVERNMENT
                                                                     MEMORANDUM


       Date:             Thursday, December 07, 2000

       To:               Timothy E. Cox, Regional Inspector General, San Salvador

       From:             Elena Brineman, Mission Director

       Subject:          Draft Report on the Audit of Certain USAID/DR Financial
                         Data


       Subject draft report contains three recommendations. The audit of
       USAID/DR’s Financial Data had the following objective: to determine if
       USAID/DR’s advances, disbursements, and balances were properly
       processed and reported. The recommendations made to USAID/DR follows:

                           1.   USAID/DR issues written instructions to implementing
                                organizations on the data needed in their financial
                                reports for advance analysis;

                           2.   USAID/DR revises its Mission Order to address the
                                monitoring of outstanding advances on an on-going
                                basis, at least quarterly;

                           3. USAID/DR establishes,

                                3.1.in consultation with USAID/Guyana and the U.S.
                                Embassy in Guyana, written procedures on the
                                vouchers initiated and processed through the U.S.
                                Embassy for charges to USAID/Guyana; and

                                3.2.in consultation with the U.S. Embassy in the
                                Dominican Republic, written procedures on the




               Page 11 of 12                                   Audit Report No. 1-517-01-002-F
                                                                Appendix II

                   vouchers initiated and processed through the U.S.
                   Embassy for charges to USAID/DR.

In connection with recommendation 1., a meeting was held on November
8th at the USAID office with all grantees and contractors that
either receive advances directly or administer advances to sub-
grantees (15 of the 16 invited participated). Controller Office Staff
reviewed the new advance request format, discussed all concerns and
any questions with the attendees. On November 16th, a follow up
letter with written instructions was sent to these same institutions.
See attached letter (Al), instructions (A2a, A2b) and revised form
(A3). USAID/DR considers this recommendation closed.

In connection with recommendation 2., USAID/DR Mission Order No.
IV.11 has been revised to include procedures for monitoring
outstanding advances on a quarterly basis (see attachment B).
USAID/DR considers the recommendation closed.

In connection with recommendation 3., MOUs have been signed with the
U.S. Embassy and USAID/Guyana and with the U.S. Embassy in the
Dominican Republic (see attachments C and D). USAID/DR considers
this recommendation closed.

USAID/Dominican Republic would like to thank the Regional Inspector
General’s Office in San Salvador for the advice and suggestions that
were made to USAID staff during the performance of the audit. We
look forward to receiving the final report that indicates that all
recommendations have been closed.




   Page 12 of 12                                 Audit Report No. 1-517-01-002-F
